<html>
<title> - FEDERAL ELECTRONIC RECORDS MANAGEMENT: A STATUS REPORT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
         FEDERAL ELECTRONIC RECORDS MANAGEMENT: A STATUS REPORT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2010

                               __________

                           Serial No. 111-94

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
62-947                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2245524d62415751564a474e520c414d4f0c">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     AHN ``JOSPEH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2010....................................     1
Statement of:
    Ferriero, David S., Archivist of the United States, U.S. 
      National Archives and Records Administration, accompanied 
      by Jason Baron, Director of Litigation, U.S. National 
      Archives and Records Administration; Paul Wester, Director, 
      Modern Records Programs, U.S. National Archives and Records 
      Administration; David M. Wennergren, Deputy Assistant 
      Secretary of Defense for Information Management, 
      Integration and Technology, Deputy Chief Information 
      Officer, U.S. Department of Defense; and Valerie C. Melvin, 
      Director, Information Management and Human Capital Issues, 
      U.S. Government Accountability Office......................     7
        Ferriero, David S........................................     7
        Melvin, Valerie C........................................    27
        Wennergren, David M......................................    18
        Wester, Paul.............................................    12
    Hunter, Gregory S., associate professor of library and 
      information science, Long Island University, C.W. Post 
      Campus; Carol Brock, certified records manager, 
      representing ARMA International; and Anne Weismann, chief 
      counsel, Citizens for Ethics and Responsibility in 
      Washington.................................................    59
        Brock, Carol.............................................    69
        Hunter, Gregory S........................................    59
        Weismann, Anne...........................................    78
Letters, statements, etc., submitted for the record by:
    Brock, Carol, certified records manager, representing ARMA 
      International, prepared statement of.......................    71
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Ferriero, David S., Archivist of the United States, U.S. 
      National Archives and Records Administration, prepared 
      statement of...............................................    10
    Hunter, Gregory S., associate professor of library and 
      information science, Long Island University, C.W. Post 
      Campus, prepared statement of..............................    62
    Melvin, Valerie C., Director, Information Management and 
      Human Capital Issues, U.S. Government Accountability 
      Office, prepared statement of..............................    29
    Weismann, Anne, chief counsel, Citizens for Ethics and 
      Responsibility in Washington, prepared statement of........    80
    Wennergren, David M., Deputy Assistant Secretary of Defense 
      for Information Management, Integration and Technology, 
      Deputy Chief Information Officer, U.S. Department of 
      Defense, prepared statement of.............................    20
    Wester, Paul, Director, Modern Records Programs, U.S. 
      National Archives and Records Administration, prepared 
      statement of...............................................    14


         FEDERAL ELECTRONIC RECORDS MANAGEMENT: A STATUS REPORT

                              ----------                              


                        THURSDAY, JUNE 17, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Norton, Driehaus, Cuellar, 
Chu, Issa, and McHenry.
    Staff present: Darryl Piggee, staff director/counsel; 
Anthony Clark, professional staff member; Charisma Williams, 
staff assistant; Ron Stroman, full committee chief of staff; 
Leneal Scott, full committee IT specialist; Rob Borden, 
minority general counsel; Jennifer Safavian, minority chief 
counsel for oversight and investigations; Adam Fromm, minority 
chief clerk and Member liaison; Justin LoFranco, minority press 
assistant and clerk; Christopher Hixon, minority senior 
counsel; Ashley Callen, Sery Kim, and Jonathan Skladany, 
minority counsels; and Mark Marin and Molly Boyle, minority 
professional staff members.
    Mr. Clay. Good afternoon. The Information Policy, Census, 
and National Archives Subcommittee will now come to order.
    Without objection, the chairman and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition. And, without objection, Members and 
witnesses may have 5 legislative days to submit a written 
statement or extraneous materials for the record.
    Welcome to today's hearing, a status report on Federal 
electronic records management. My opening statement, which I 
would have made now, will be entered into the record. However, 
I would like to address an issue that the minority raised 
during a hearing held by this subcommittee last week on 
reauthorizing the National Historical Publications and Records 
Commission.
    My Republican colleagues repeatedly questioned the accuracy 
of the information provided by a witness, Dr. Ira Berlin, on 
his disclosure form. I had thought that we had resolved the 
issue during the hearing last week when Dr. Berlin answered the 
increasingly unpleasant questions directly. However, in a 
letter dated yesterday, June 16th, to Dr. Berlin, signed by Mr. 
Chaffetz of Utah and Mr. Jordan of Ohio, the minority continued 
to assert that Dr. Berlin was not accurate and completely 
forthcoming in his disclosure form and his testimony.
    Further, the minority asked the Archivist of the United 
States, Mr. Ferriero, during the hearing for his opinion about 
duplication among grant programs, and the Archivist gave his 
opinion. I concur with his opinion, as did the many expert 
witnesses who came before the subcommittee, that the NHPRC is 
not duplicative of other programs. And yet, in a second letter, 
also dated yesterday and sent to Archivist Ferriero, Mr. 
Chaffetz and Mr. Jordan suggest that the Archivist was not 
accurate during his testimony at the same hearing.
    In both letters the minority strongly suggests that the 
witnesses were not truthful and urged them to reflect on their 
testimony and correct it as soon as possible.
    Let me state unequivocally and for the record that Dr. 
Berlin completed his disclosure form accurately and thoroughly. 
He has provided the subcommittee, and the minority has received 
a copy, with this information that confirms his form and his 
testimony was accurate and complete.
    I also want to state for the record that Archivist Ferriero 
was asked his opinion and he gave it truthfully. The minority 
may certainly disagree with that opinion, just as they may 
fundamentally misunderstand the nature of the NHPRC, its 
critical value to this Nation, the distinction between teaching 
at a university and representing that university, and the 
differences among Federal grant programs. But to suggest that 
either of these distinguished witnesses were anything but 
candid and forthright when appearing before this subcommittee 
is disgraceful.
    I think the minority owes both Dr. Berlin and Archivist 
Ferriero, who is here today, apologies for the way they treated 
these honorable and widely respected witnesses.
    Now I will yield to my colleague, the ranking minority 
member, Mr. McHenry, of North Carolina, to respond to what I 
just said or for an opening statement.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.001
    
    Mr. McHenry. Well, Mr. Chairman, thank you. And I 
appreciate your courtesy in working with me on this 
subcommittee, especially on this important issue. I see that my 
ranking member is here. This is an issue that I think was dealt 
with and would be better addressed by the ranking member, so I 
would be happy to yield to the ranking member.
    Mr. Issa. I thank the gentleman, and I join with the 
ranking member of the subcommittee reiterating that all we want 
to do is maintain the importance of this committee, which 
requires all witnesses be sworn, that they all make signed 
statements before they testify as to their truthful testimony, 
and that we be able to check that for consistency.
    Last week, I know the chairman is aware of this, we were 
halfway through and people were still getting the paperwork 
right. We asked for no more than we would give if the shoe was 
on the other foot, and we hope to be held to that standard in 
the future.
    Having said that, certainly it is not our interest today to 
slow up our witnesses from testifying because of failures 
previously, so I would yield back the time to the gentleman.
    Mr. McHenry. I thank the ranking member. Thank you for 
clarifying that.
    In the interest of what is happening today, I appreciate 
the panel being here today. We are talking about a very 
important issue that Archivist Ferriero and I have discussed 
personally, and I know is of distinct interest to him in his 
new position. And much of what we are talking about now has a 
much longer time period that we are discussing than the current 
leadership of the Archives.
    So, having said that, we want to talk about how we are 
going to move forward. Certainly, it is important that we have 
the Archives efficiently and effectively fulfilling their 
mission to secure our Nation's records. Our history can so 
easily be lost by a misplaced computer file, records destroyed, 
theft, and all these discussions that we have had previously in 
this subcommittee with testimony from the Archives, from the 
testimony from the GAO, from the IG, and that record is there; 
it is established. We have millions of records lost and we want 
to ensure that, going forward, we are able to keep records.
    Archivist Ferriero was quoted on May 25th in the Washington 
Post as saying, ``I think the electronic records archive is 
probably the biggest, most complex visible and important 
project that we need to get running. Citizens will be able to, 
from their home, at any time of the day or night, access the 
records of government. All the agencies now are experimenting 
with electronic records and our job is to make sure that we 
have created the capacity to ingest these records, keep them 
for perpetuity, and make them available in perpetuity. So that, 
I think, is my biggest chore.''
    That might be an understatement. It is certainly a large 
chore, and that is what we want to discuss today.
    The GAO has highlighted some of these challenges in recent 
reports and criticized the Archives for failing to accurately 
disclose program costs, schedules, and performance. In addition 
to sharing the GAO's concerns, I think as we all do, I am 
concerned about the fact that 21 agencies failed to participate 
in the Archives records management self-assessment. The self-
assessment is a critical tool for the Archives to evaluate the 
progress of each and every agency as they transition into 
digital records management systems.
    I think this is the larger issue overall of modernizing our 
Federal Government so that we have a 21st century bureaucracy, 
not a 1920's bureaucracy. And, unfortunately, we have the worst 
of both worlds currently with a quasi-digital, yet quasi-paper 
management technique, or lack of even management, period.
    As I mentioned before, boxes of paper documents fill dozens 
of the Archives' warehouses across the country. These are the 
records of our Federal Government and certainly important to 
the history of our country. And a warehouse is susceptible to 
fire, flood, burglary, and so many of the other challenges 
based on just storing in that form.
    Finally, I would say that even storing digitally, the 
question is, 50 years from now, how can we access these things. 
As a layperson and as individuals, 20 years ago we had a DOS 
prompt. Nobody uses a DOS prompt anymore. Well, except a few 
Federal agencies still. Google didn't exist 20 years ago. I 
mean, everything is evolving so quickly, so the importance of 
getting it right now, so that we can build on this, is 
certainly very important.
    And I think the American people should be concerned about 
this because it is our history and our records, and we want to 
be able to look at our records today just as we look today at 
records from 100 years ago, and the nice written correspondence 
with the squiggly handwriting, and we can look at handwriting 
and judge those things. We are in a different day and age.
    So I am interested to hear the testimony. I do think this 
is important. I certainly appreciate the chairman calling this 
important hearing and, with his work that we have done together 
on this subcommittee and his willingness to work across party 
lines, I appreciate that. Thank you.
    Mr. Clay. I thank the ranking member too. I see that the 
ranking member of the full committee is still here, and the two 
colleagues that wrote these letters, Mr. Chaffetz and Mr. 
Jordan, are not here. Perhaps staff can find them somewhere and 
perhaps they want to offer up an apology to the Archivist, as 
well as the----
    Mr. Issa. Mr. Chairman.
    Mr. Clay. I yield.
    Mr. Issa. Thank you. We stand by our letter. We recognize 
that anyone's interpretation of the letter is subject to many 
things, but as of this moment we still have inconsistency in 
the Archivist's previous testimony as to duplicate grants and 
so on. We don't consider that there were false statements, but 
they do need to be corrected for the record. I will be glad to 
inform both Members to come down.
    Mr. Clay. I know that Professor Berlin did correct the 
record or state it for the record, his involvement. Here is the 
point. The point is that we should not invite witnesses here 
and then continually berate them even after they leave through 
communications from the full committee.
    Mr. Issa. Mr. Chairman----
    Mr. Clay. I have the letters here, Mr. Issa, and I think it 
is inappropriate.
    Mr. Issa. Mr. Chairman, I speak for the full committee; the 
other two Members do not. It is our intention to hold 
accountability while not berate any witness or have anything 
other than respect for their accurate statements. And if they 
are inaccurate, give them full opportunity to correct the 
record.
    We know that mistakes happen in live testimony all the 
time, and we have no intention of doing anything more than 
making sure that the final record is correct. So on behalf of 
the full committee, if anything was taken other than that from 
our letter, I apologize.
    Mr. Clay. Thank you.
    Mr. McHenry. And, Mr. Chairman, I reserve the right to 
berate witnesses if they are from BP.
    Mr. Clay. We will continue with the hearing.
    Let me introduce our first panel. Our first witness will be 
the Archivist of the United States, David Ferriero. Mr. 
Ferriero has led the National Archives since his confirmation 
last November. He previously served as the Andrew W. Mellon 
Director of the New York Public Library, the largest public 
library system in the United States. Mr. Ferriero earned 
Bachelors and Masters degrees in English Literature from 
Northeastern University in Boston and a Masters Degree from the 
Simmons College of Library and Information Science, also in 
Boston.
    Mr. Ferriero is accompanied by Mr. Jason Baron, who has 
been the Director of Litigation for the National Archives since 
2000. He is a frequent public speaker on the subject of the 
Federal Government's obligations with respect to the 
preservation of electronic records and he is an adjunct 
professor at the University of Maryland, which happens to be my 
alma mater.
    After the Archivist, we will hear from Mr. Paul Wester, the 
Director of Modern Records Program at the National Archives. 
Mr. Wester joined NARA in 1990 as a graduate student also from 
the University of Maryland. He has delivered speeches on 
electronic records issues and NARA's strategic direction for 
Federal records management.
    Our next witness will be Mr. David Wennergren, the Deputy 
Assistant Secretary of Defense for Information Management, 
Integration and Technology, and Deputy Chief Information 
Officer. He is also the vice chairman of the U.S. Government's 
Federal CIO Council. Mr. Wennergren received his Master of 
Public Policy from the University of Maryland, a continuing 
theme.
    And our final witness on this panel will be Ms. Valerie 
Melvin, Director of Information Management and Human Capital 
Issues within the U.S. Government Accountability Office's 
Information Technology Team. Ms. Melvin is also a graduate of, 
you guessed it, the University of Maryland, with a B.S. degree 
in business administration and a Master's degree----
    Mr. McHenry. And I must chime in. I got married 2 weeks ago 
and I married a graduate from the University of Maryland.
    Mr. Clay. We are so happy that you married up.
    Mr. McHenry. Thank you. [Laughter.]
    Mr. Clay. Archivist Ferriero, it looks like you are the 
only one who is not a Terp. The University has connections to 
the National Archives. Maybe they might want to think about 
granting you an honorary degree.
    I thank all of our witnesses for appearing today and look 
forward to their testimony.
    It is the policy of the subcommittee to swear in all 
witnesses before they testify. Would you all please stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    Of course, as you all know, you will have 5 minutes to 
summarize your testimony. Your complete written statement will 
be included in the hearing record.
    Archivist Ferriero, please begin.

   STATEMENTS OF DAVID S. FERRIERO, ARCHIVIST OF THE UNITED 
  STATES, U.S. NATIONAL ARCHIVES AND RECORDS ADMINISTRATION, 
   ACCOMPANIED BY JASON BARON, DIRECTOR OF LITIGATION, U.S. 
  NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; PAUL WESTER, 
 DIRECTOR, MODERN RECORDS PROGRAMS, U.S. NATIONAL ARCHIVES AND 
 RECORDS ADMINISTRATION; DAVID M. WENNERGREN, DEPUTY ASSISTANT 
 SECRETARY OF DEFENSE FOR INFORMATION MANAGEMENT, INTEGRATION 
    AND TECHNOLOGY, DEPUTY CHIEF INFORMATION OFFICER, U.S. 
    DEPARTMENT OF DEFENSE; AND VALERIE C. MELVIN, DIRECTOR, 
     INFORMATION MANAGEMENT AND HUMAN CAPITAL ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

                 STATEMENT OF DAVID S. FERRIERO

    Mr. Ferriero. Chairman Clay, Ranking Member McHenry, 
congratulations, and Congresswoman Chu, I am David Ferriero. I 
am the Archivist of the United States, and thank you for 
providing me the opportunity for the National Archives and 
Records Administration to testify about governmentwide Federal 
records management and the central role that records management 
plays in the accomplishment of the mission of the National 
Archives.
    The backbone of transparent and accountable government is 
good records management. To put it simply, the Government 
cannot be open or accountable if it does not preserve and 
cannot find its records.
    NARA believes that across the Federal Government agencies 
can do more to fulfill their records management 
responsibilities, particularly with regard to the exponential 
growth in electronic records.
    NARA's records management approach is grounded in three 
principles: Federal agencies must economically and effectively 
create and manage records necessary to meet business needs; 
Federal records must be kept long enough to protect rights and 
assure accountability; and, third, Federal records of archival 
value must be preserved and made available by the National 
Archives for future generations.
    Most Federal agencies need to do a more effective job 
managing their records and other information assets to meet 
their business needs, to protect or assure accountability for 
the citizen or the Federal Government, and to ensure records 
that document the national experience are preserved and made 
available for future generations in the National Archives.
    Agency heads and senior leaders must work with NARA, the 
Office of Management and Budget, and General Services 
Administration, as well as with groups like Chief Information 
Officers Council, the Federal Records Council, and the Federal 
Web Managers Community to develop the information technology 
tools necessary to manage electronic records in a cost-
effective way.
    The technical changes associated with developing the IT 
tools for electronic records management are not insignificant. 
The lack of effective tools today is due in part because heads 
of agencies and senior leaders across the Federal Government 
have not been held accountable in meaningful ways for meeting 
their Federal records and information management obligations. 
The Federal Government spends $80 billion annually on 
information technology, most, if not all, of which create or 
receive Federal records in some form. Developing cost-effective 
electronic records management tools that work and then 
integrating them into agency IT systems is essential to 
managing this national asset.
    Over the past 10 years, NARA has developed a substantial 
body of electronic records management policy and guidance. The 
policy includes the first full revision of Federal records 
management regulations in nearly 25 years. The endorsement for 
civilian agency use of Department of Defense Electronic Records 
Management Application Design Criteria Standard, the 
development of the Records Management Profile, and associated 
tools for use by Federal agency CIOs to help them think about 
and account for records management and enterprise architecture; 
and the issuance of Federal records management guidance on 
topics such as managing Web records, managing records in a 
multi-agency environment, and using email archiving 
applications to store and manage Federal records. All of our 
electronic records management policy and guidance documents can 
be found on our Web site, Archives.gov.
    In the past 18 to 24 months, NARA has been much more 
assertive in exercising its statutory authority in this area 
and reporting on its activities. However, work remains to be 
done by both NARA and the Federal agencies in creating, 
preserving, and making available the electronic Federal records 
that are part of the Nation's documentary heritage.
    Our Nation's historical record hinges on the ability of 
each Federal agency to effectively manage their records. Heads 
of agencies and senior leaders across the Federal Government 
need to understand that the records and information they and 
their organizations are creating are national assets that must 
be effectively managed and secured so that the public can be 
assured of the authenticity of the record. Heads of agencies 
and senior leaders need to be held accountable for managing 
these assets. Not only is it required by law in the Federal 
Records Act, effective records management, adequate and proper 
documentation of the Federal Government's activities and 
transactions is good government and a necessary condition of an 
open government.
    To more fully explain the concerns in the electronic 
environment, my colleague, Paul Wester, Director of Modern 
Records Programs at NARA, will discuss the results of two 
recent analyses completed by NARA's National Records Management 
Program.
    Thank you for the opportunity to appear today, and I look 
forward to answering any questions that you have.
    [The prepared statement of Mr. Ferriero follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.002
    
    [GRAPHIC] [TIFF OMITTED] T2947.003
    
    Mr. Clay. Thank you, Archivist Ferriero.
    Mr. Wester, we will proceed with your testimony.

                    STATEMENT OF PAUL WESTER

    Mr. Wester. Good afternoon, Chairman Clay, Ranking Member 
McHenry, and Congresswoman Chu. My name is Paul Wester, and I 
am the Director of the Modern Records Programs at the National 
Archives and Records Administration. I am pleased to appear 
before you today to provide a status report on Federal 
electronic records management.
    On April 20th, NARA issued a report entitled, ``Records 
Management Self-Assessment 2009: An Assessment of Records 
Management Programs in the Federal Government.'' In this report 
we analyzed the responses to a self-assessment survey NARA sent 
to 242 Federal cabinet level agencies, their components, and 
independent agencies. The goal of the self-assessment was to 
gather data to determine how effective Federal agencies are in 
meeting the statutory and regulatory requirements for Federal 
records management.
    Based on our analysis and scoring of 220 agency responses, 
we rated 36 percent of Federal agencies as being at high risk 
and 43 percent of Federal agencies as being at moderate risk in 
their records management programs.
    Earlier this week NARA completed and issued a report 
entitled, ``NARA's Electronic Records Project, Summary Report: 
Fiscal Year 2005 through Fiscal Year 2009.'' In this report we 
detailed Federal agency compliance with NARA Bulletin 2006-
2002, NARA Guidance for Implementing Section 207(e) of the E-
Government Act of 2002. In this Bulletin, issued in December 
2009, NARA formally established a September 30, 2009, deadline 
for all Federal agencies to submit records schedules to NARA 
for all of their existing electronic records systems. It also 
required Federal agencies to schedule new electronic records 
systems as they are developed.
    By the September 30, 2009, deadline, NARA had received 
electronic records scheduling reports from 160 of 240 Federal 
agencies for a 67 percent response rate. Of the reporting 
agencies, 42 percent were considered low risk. However, 25 
percent of the reporting agencies were categorized as moderate 
to high-risk agencies, having submitted schedules to NARA for 
less than 90 percent of all of their electronic records 
systems. Thirty-three percent of agencies did not respond to 
the deadline at all.
    We are troubled by the results of this report, as well as 
the self-assessment of Federal agencies' records management 
programs. Even though these are baseline reports, we are 
troubled by the potential levels of risk to Federal records. 
Overall, the results are unacceptable. We in the agencies need 
to find ways to do better.
    Toward this end, we have undertaken a number of activities. 
First, we are working to increase awareness of electronic 
records management requirements and raise accountability for 
noncompliance. Second, in conjunction with an audit from NARA's 
Office of the Inspector General, we are undertaking a year-long 
study of ways to improve NARA's oversight of records management 
practices. We expect this work to be completed in June 2011.
    NARA is also reviewing areas where it maybe useful to 
clarify the direction in which the Federal Government must move 
to improve the management of electronic records.
    While we will likely identify others in the course of our 
analysis, there are two broad areas that we know we must 
examine now. First, we need to identify cost-efficient ways to 
ensure that agencies manage electronic records electronically 
and do not rely on paper-based recordkeeping systems to manage 
electronic records. We need to transition away from traditional 
print and file recordkeeping systems.
    Second, given the special long-term preservation and access 
challenges associated with electronic records, NARA plans to 
identify ways in which Federal agencies can be encouraged to 
transfer preservation copies of permanently valuable electronic 
records to the National Archives as soon as possible for safe 
keeping.
    If NARA is not actively engaged with agencies to fully 
understand the electronic formats in which records are being 
created and used, then records may be at risk. As part of its 
comprehensive review of records management practices, NARA will 
review options for mitigating this particular risk.
    As we state in our strategic plan: Fundamental changes in 
the Federal Government's business processes, and in the wider 
information management environment, have critical implications 
for the records life cycle. Today, the Federal Government 
creates the bulk of its records and information in electronic 
form. To deal with these challenges and carry out our mission, 
NARA must provide leadership and be more agile in adapting to 
change in information technology and in the Federal 
recordkeeping environment.
    NARA's role as the Nation's record keeper is vital to the 
future of our Nation. Without a vigorous, forward-thinking 
records management program, we risk losing the information that 
documents the daily work of our government and ultimately the 
history of our Nation.
    We look forward to meeting these challenges and carrying 
out the mission of the National Archives and Records 
Administration in the years to come.
    Thank you for this opportunity to discuss Federal 
electronic records management with the committee, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Wester follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.004
    
    [GRAPHIC] [TIFF OMITTED] T2947.005
    
    [GRAPHIC] [TIFF OMITTED] T2947.006
    
    [GRAPHIC] [TIFF OMITTED] T2947.007
    
    Mr. Clay. Thank you so much, Mr. Wester.
    Mr. Wennergren, you are up.

                STATEMENT OF DAVID M. WENNERGREN

    Mr. Wennergren. Mr. Chairman, Ranking Member McHenry, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today.
    The information age is providing tremendous opportunities 
for the Department of Defense to improve operational 
effectiveness through the accelerated and expanded use of 
information technology. Paper-based business processes are 
being transitioned to electronic-based solutions.
    And thanks to technology advances like service-oriented 
architecture and the advent of Web 2.0 tools, new information 
capabilities can be delivered much more rapidly today than we 
even dreamed possible a few years ago. There is an imperative 
to have information tools in place both to realize the power of 
information sharing and to address crucial issues of 
information security.
    Accompanying this pervasive transformation is the ever-
increasing importance of electronic records management. And 
while the challenges that we encounter in implementing 
electronic records management are significant, we are committed 
to ensuring compliance with records management rules and 
regulations, as well as ensuring that records management 
solutions are transparent to war fighters, relatively simple to 
use, and aligned with business processes. We have policy and 
standards in place to address the life cycle of management of 
records and to ensure compliance with NARA policies.
    I would like to take a moment and highlight our electronic 
records management application standard. This standard 
identifies the mandatory requirements for records management 
application software. It leverages our joint interoperability 
test command to certify applications as compliant and allows 
DOD components to procure and implement compliant-records 
management application software. We are pleased that the 
standard was endorsed by NARA in 2008 and recommended for use 
by all Federal agencies.
    Like all large organizations, we face several challenges in 
this work: the scope of deploying records management 
applications across a 3\1/2\ million person organization; the 
need to also simultaneously ensure legacy IT systems are 
compliant; and the imperative of having a work force that is 
trained and adept at electronic records management.
    While DOD already maintains trained records managers 
throughout the organization, information technology advances 
have shifted records management responsibilities from central 
records management organizations to individual employees. 
Consequently, our training efforts have expanded to ensure the 
entire work force understands the importance of making records 
management an integral part of daily operations.
    In closing, we are committed to working with NARA to ensure 
we effectively address records management, while simultaneously 
transforming the Department.
    Thank you again for allowing me the opportunity to appear, 
and I am happy to answer any questions that you have.
    [The prepared statement of Mr. Wennergren follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.008
    
    [GRAPHIC] [TIFF OMITTED] T2947.009
    
    [GRAPHIC] [TIFF OMITTED] T2947.010
    
    [GRAPHIC] [TIFF OMITTED] T2947.011
    
    [GRAPHIC] [TIFF OMITTED] T2947.012
    
    [GRAPHIC] [TIFF OMITTED] T2947.013
    
    [GRAPHIC] [TIFF OMITTED] T2947.014
    
    Mr. Clay. Thank you so much for your testimony.
    Ms. Melvin, you have 5 minutes.

                 STATEMENT OF VALERIE C. MELVIN

    Ms. Melvin. Thank you, Mr. Chairman, Ranking Member 
McHenry, and members of the subcommittee. I am pleased to 
participate in today's hearing on the electronic records 
management in the Federal Government. As you have requested, I 
will provide some background on the roles of agencies and NARA, 
and briefly discuss some of the challenges of managing 
electronic records.
    As you know, the Federal Records Act requires agencies to 
have programs and appropriate systems to manage information 
documenting government functions, decisions, and other 
important transactions. If such records are poorly managed, 
individuals might lose access to legitimate benefits, the 
Government could be exposed to legal liabilities, and records 
of historical interest could be lost forever. Poorly managed 
records also increase the costs of responding to FOIA requests 
or litigation-related discovery actions and impede 
accountability and efficiency.
    Nonetheless, as we have long reported, records management 
has historically been subject to neglect, in part because it is 
not a core agency mission. A major challenge for agency records 
managers is to make the case for investing in records 
management in an environment of limited resources.
    Although agency heads are ultimately responsible for their 
agencies' records, NARA has a role in improving Federal records 
management through providing guidance, assistance, and 
oversight. In its oversight role, NARA is responsible for 
conducting inspections or surveys, conducting records 
management studies, and reporting the results.
    However, in 2008, we reported that NARA had not fully used 
its oversight authority, as it had not conducted any 
inspections of agency programs since 2000, nor consistently 
reported the results of its oversight activities. Accordingly, 
we recommended that NARA implement a new approach to oversight 
that more fully used its existing authority.
    In response, as has been mentioned already, NARA developed 
an oversight strategy that included the agency records 
management self-assessment survey, which it recently reported 
on. NARA had said that it plans to use annual surveys to 
provide an overall picture of Federal records management and to 
inform its oversight activities, including inspections.
    As weaknesses reported in NARA's survey indicate, giving 
priority to records management remains a major challenge. 
Effective records management, electronic or otherwise, requires 
investing time and resources to analyze the information an 
agency receives, produces, and uses to fulfill its mission. 
This allows an agency to determine what categories of documents 
and informational records, and it can then associate its 
records with information that will help it find and use those 
records, and finally dispose of those no longer needed.
    Electronic records are particularly challenging because of 
their complexity, ever-increasing volume, and decentralized 
environment in which they are created. In the desktop computer 
age, individual users create and store large numbers of 
documents, particularly email, and it is difficult to get users 
to distinguish record from non-record material and treat it 
appropriately.
    Even when electronic record keeping features are integrated 
into email systems, users may resist having to categorize every 
email they send or receive. In an ideal situation, records 
would be automatically identified and captured, with little or 
no user intervention. Technology that aims to automatically 
categorize records is beginning to appear, but its 
effectiveness will depend on devoting resources to proper 
implementation and the context of established records 
management programs.
    As our work has demonstrated, technology is a tool to help 
solve problems, not a solution in itself, however. Like any 
technology, electronic records management systems require 
careful planning and analysis of agency requirements, business 
processes and information, along with the necessary management 
attention and resources to ensure effective implementation.
    The long history of records management neglect suggests 
that raising its priority will not happen easily. However, 
several factors could encourage progress: first, NARA's public 
scoring of agency records management programs could raise their 
profile within agencies; second, greater recognition of the 
increasing risk posed by weak management of electronic records 
and information could focus management attention; third, the 
recent Open Government Directive includes specific requirements 
for records management as part of its push to make more 
information public. This could help make records and 
information management a more central agency mission. Finally, 
congressional oversight, such as this hearing, could also help 
raise the priority given to this important issue.
    Mr. Chairman, this completes my prepared statement, and I 
would be pleased to respond to any questions.
    [The prepared statement of Ms. Melvin follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.015
    
    [GRAPHIC] [TIFF OMITTED] T2947.016
    
    [GRAPHIC] [TIFF OMITTED] T2947.017
    
    [GRAPHIC] [TIFF OMITTED] T2947.018
    
    [GRAPHIC] [TIFF OMITTED] T2947.019
    
    [GRAPHIC] [TIFF OMITTED] T2947.020
    
    [GRAPHIC] [TIFF OMITTED] T2947.021
    
    [GRAPHIC] [TIFF OMITTED] T2947.022
    
    [GRAPHIC] [TIFF OMITTED] T2947.023
    
    [GRAPHIC] [TIFF OMITTED] T2947.024
    
    [GRAPHIC] [TIFF OMITTED] T2947.025
    
    [GRAPHIC] [TIFF OMITTED] T2947.026
    
    [GRAPHIC] [TIFF OMITTED] T2947.027
    
    [GRAPHIC] [TIFF OMITTED] T2947.028
    
    [GRAPHIC] [TIFF OMITTED] T2947.029
    
    [GRAPHIC] [TIFF OMITTED] T2947.030
    
    [GRAPHIC] [TIFF OMITTED] T2947.031
    
    [GRAPHIC] [TIFF OMITTED] T2947.032
    
    [GRAPHIC] [TIFF OMITTED] T2947.033
    
    [GRAPHIC] [TIFF OMITTED] T2947.034
    
    [GRAPHIC] [TIFF OMITTED] T2947.035
    
    Mr. Clay. Thank you so much, Ms. Melvin.
    We will now proceed to questioning of the witnesses on the 
5-minute rule, and we will begin with the gentlewoman from 
California leading off the questions.
    Ms. Chu. Thank you, Mr. Chair.
    Well, I was alarmed to hear about the results of the NARA 
study that 79 percent of all agencies are at a high or moderate 
risk of improper destruction of records, and the numbers are 
disturbingly high. Let me ask do you have the proper authority 
to carry out your statutory and regulatory responsibilities, 
Mr. Wester? And, if not, are there specific legislative changes 
that need to be made in order to ensure that NARA can properly 
carry out its mission?
    Mr. Wester. Thank you very much for the question. What we 
need to do in the coming years, conduct our analysis of our 
current statutory authorities and the policies that we have in 
place right now to see what kinds of limitations we have with 
the authorities and policies we have right now to improve 
records management.
    My sense of it is there are things that we can do in the 
policy arena, in the guidance arena, and with making agencies 
more aware and publicizing the different aspects of either lack 
of attention or poor management of records within agencies that 
I think will be able to help us improve records management 
within agencies. In the meantime, we need to conduct the 
analysis of our statutory authorities and the guidance and 
regulation that we already have to see if it meets the needs 
that we see as the National Archives, as well as the needs that 
Federal agencies have to better manage their records.
    Ms. Chu. So you think there might be some extra authority 
that you may need, but you have to do the study first?
    Mr. Wester. I believe that is true.
    Ms. Chu. Because I noted that out of the 240 Federal 
agencies that were supposed to submit to you by September 2009, 
only 160 even responded. What can you do to make them respond? 
And are we to assume that the rest that did not respond have 
even worse records?
    Mr. Wester. I don't think we should assume that they have 
worse records. Some of the issues that we have with the 
agencies who were non-responsive have issues of resources 
within their organizations that have kept them from getting the 
submissions in on time. We have had our staff following up on 
agencies who did not respond and we have subsequently gotten 
materials back from them. But what our reporting has helped do 
is raise the issue within those agencies, because a lot of the 
agencies have found out from the publication of our report and 
the distribution of our report in the press and in other 
arenas, they have found out that their records management 
programs are not up to snuff and senior leadership within those 
agencies has taken a greater interest in this issue and has 
helped to highlight it and make changes or increase the 
emphasis on these issues within those agencies to make the 
awareness higher and that agencies will be able to devote 
resources to answer the questions in the future and help us be 
able to followup on issues that arose from that survey.
    Ms. Chu. So again going back to the authority, what can you 
do to make them respond? And also if you inspect an agency's 
electronic records program and you have a suggestion for 
change, what can you do to make them respond to whatever you 
suggest?
    Mr. Wester. Within our current statutory authority, we have 
the authority to go into an agency and conduct an inspection, 
go in and inspect records, inspect how agencies are managing 
those records. We also have the authority to make reports to 
Congress and to OMB, both to Oversight Committees as well as 
the Appropriations Committees to make those issues aware to the 
funding sources and the oversight sources, both executive and 
in the legislative branch.
    We also have the authority to continue to followup on those 
reports and make reports to the public on how well agencies are 
managing or not managing their records, following up on those 
inspections, and that is what we intend to do with the 
inspections.
    Ms. Chu. And what if they don't respond?
    Mr. Wester. We would bring these issues to the attention of 
more senior folks in the agency and to the Oversight Committees 
and the Appropriations Committees. That is the authority that 
we have currently.
    Ms. Chu. Ms. Melvin, you suggested that perhaps the 
authority that NARA has has not been utilized to its maximum. 
Could you explain that?
    Ms. Melvin. Yes. Following up, actually, on a 2008 report 
that we issued and which we discussed on NARA's oversight and 
the extent to which it had been undertaken, our concern was 
that we believe that NARA has authority that it had not used 
fully; and we based this on the fact that in recent years NARA 
had not conducted inspections.
    At the time that we looked at it in 2008, they were 
primarily performing studies; however, we found that they had 
not conducted any inspections since 2000. At that time we made 
recommendations to NARA as far as increasing its inspections to 
look for opportunities, to have a more comprehensive evaluation 
and provide a more governmentwide picture.
    We recognize that they now have done the survey, and we 
would look at that as a first step toward moving in that 
direction, but clearly, from our perspective, we think that 
there are opportunities. We have seen that they have been 
really good at putting plans in place, but from the standpoint 
of actually following through to actually conduct oversight 
through inspections, in particular, and looking at more 
thoroughly, I should say, at what agencies are undertaking in 
the way of records management is something that we would like 
to see more of.
    Ms. Chu. And how many of the 245 agencies have formal 
record retention policies? And of those that don't, what can 
you do to make them get a policy, Mr. Wester?
    Mr. Wester. Most of the agencies, virtually all the 
agencies have records retention policies. The issue is the 
validity of those policies given how old some of them are, how 
current they are, and how well they cover different aspects of 
changing records management environment. Where we have moved 
from a paper environment to an electronic environment, some of 
those policies have not kept pace with the issues that those 
agencies need to confront as they manage their records.
    Ms. Chu. OK, thank you. I see my time is up. I yield back.
    Mr. Clay. Thank you.
    The gentleman from North Carolina is recognized.
    Mr. McHenry. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    To Ms. Melvin's point, Mr. Wester, the followup, the 
inspections, can you respond to that?
    Mr. Wester. Yes. We are going to be launching an inspection 
starting next week with the Office of the Secretary of Defense 
and the Under Secretary for Intelligence to take a look at how 
email is managed within those two organizations.
    Mr. McHenry. So you are beginning that process?
    Mr. Wester. We are beginning that process right now.
    Mr. McHenry. OK.
    So, Ms. Melvin, to your point, how well has NARA, in your 
view, implemented the recommendations of the GAO in order to 
move forward on electronic records management?
    Ms. Melvin. On electronic records management specifically? 
They have been working to implement our recommendations. We 
have seen some implemented, but from the standpoint of our 
overall recommendations, I believe the recommendations for the 
2008 report are still in process, so we have not fully seen 
that they have been fully implemented at this time.
    Mr. McHenry. OK.
    Dr. Ferriero, thank you for your testimony. We have had 
this discussion before, that you are taking an agency that has 
some personnel challenges. We have some good folks at NARA and 
you have explained that, but there is a lack of motivation 
among a large group, and you have to change the culture. With 
electronic records archive, you inherited, I will say that 
clearly, you inherited a problem here. It is over budget, 
behind schedule. What progress is being made?
    Mr. Clay. Excuse me. Mr. McHenry, let me just state that 
NARA is building the electronic records archive, ERA, to 
maintain that small percentage of records that they receive, 
but this is not the subject of the hearing. The hearing is on 
the Federal Records Act, not ERA.
    Mr. McHenry. OK. Well----
    Mr. Clay. Hopefully, we can confine our questioning to the 
Federal Records Act.
    Mr. McHenry. OK, I didn't think that was a problem. I have 
asked a variety of questions of Dr. Ferriero, and this is one 
that I keep bringing up. I just want to see that there is 
progress being made because----
    Mr. Clay. There will be a hearing in the future on ERA.
    Mr. McHenry. OK. Well, then, Mr. Chairman, do you want to 
ask questions, then? I will yield my time to you, because this 
is of interest to me in terms of progress being made, and I 
didn't realize I was limited by the scope of the questions.
    Mr. Clay. Well, I mean, look, the witnesses are here to 
talk about the Federal Records Act.
    Mr. McHenry. OK. Well, all right.
    Well, self-assessment. You mentioned the self-assessment. 
The SEC didn't respond. Even the Congressional Budget Office 
didn't respond. How in the hell do we get these agencies to 
respond, Dr. Ferriero?
    Mr. Ferriero. For me, the self-assessment was the baseline 
that we need to move forward. As you heard, NARA has not 
exercised its inspection authority since 2000, and this was the 
beginning of a reestablishment of our authority. I will be 
communicating directly with the agencies who haven't responded 
with some reasons for noncompliance with our direction, and we 
will continue to followup with them.
    For me, the self-assessment is kind of the beginning of 
identifying those agencies that are in most need of help, and 
we need to focus on those particular agencies especially to 
ensure that they get the support and guidance that is available 
from NARA.
    Mr. McHenry. OK. You used the word accountability a number 
of times in your testimony. Do you have the ability to hold 
these agencies accountable?
    Mr. Ferriero. I believe we do. Put yourself in the 
situation of an agency that hasn't had any authority exercised 
over them for 8 years, and all of a sudden they get a demand 
for a self-assessment. There is an attitude that develops that 
they don't take it seriously, and I would guess that we 
experienced some of that in this process.
    Mr. McHenry. Mr. Wester, do you want to comment on that?
    Mr. Wester. What I would like to say is that we have 
launched a new assessment for 2010 that we launched in the 
middle of May, and as part of launching the self-assessment for 
2010, the Archivist sent personal letters to each of the agency 
heads, and I have to say that the response that we have gotten 
from the senior levels of agencies has been much more robust 
than it was when we had done it in the previous manner before 
Mr. Ferriero came on board in November.
    So I think we are making great strides with the agencies in 
raising the awareness at the senior levels about this issue, 
but, as the Archivist said, we need to followup with the 
agencies to make sure that they continue to complete the self-
assessments and, more importantly, continue to improve their 
records management programs.
    Mr. McHenry. All right.
    I yield back, Mr. Chairman.
    Mr. Clay. Mr. Cuellar of Texas, you are recognized.
    Mr. Cuellar. Thank you very much, Mr. Chairman.
    My questions are more procedures dealing with relationships 
with agencies, NARA and GAO. GAO has done a series of reports, 
and I think they have been mentioned. The one in 1999, where 
they recommended several things, including conducting a 
governmentwide survey of the programs and the information used. 
Instead of using a governmentwide baseline assessment survey, I 
think it was more limited in scope, is that correct, Ms. 
Melvin?
    Ms. Melvin. That is correct, yes.
    Mr. Cuellar. OK. Then in 2002 there was another report and 
NARA came up with a strategy for a comprehensive report on 
that, but again there were some issues there, is that correct?
    Ms. Melvin. That is correct, yes.
    Mr. Cuellar. All right. Then, of course, we are looking at 
your current report here also. But I guess my question to the 
panel is GAO comes up with recommendations and then what 
happens? I mean, the purpose is to improve the process. What 
happens? What happens in the process when a report comes up 
from GAO?
    I mean, if I was part of NARA, I would say, ``OK, I agree 
with the recommendations'' or ``I don't agree with the 
recommendations.'' But if I do agree with the recommendations, 
let's see how fast we can implement it.
    Who wants to be first?
    Mr. Wester. I will go first. To talk about what we have 
done at the National Archives over the time period that you 
have described in relationship to the engagements that we have 
had with GAO, what we have done is we have gotten the 
recommendations, we have taken a look at how we can respond to 
them, and we have made plans and attempted to address each of 
the recommendations that have been brought before us and have 
tried to make strides in dealing with the recommendations and 
improving records management, electronic records management 
within the government.
    One of the things that has been a challenge for the 
National Archives during this time period has been the change 
of the records environment within agencies across the Federal 
Government. When our work began, more or less in 2000, which is 
probably a good marker to use for this discussion, we were in a 
transitional period across the Federal Government, where we had 
a lot of agencies who were still primarily paper-based 
organizations that were increasingly using electronic records.
    From 2000 on, what the National Archives had to do was 
figure out how to address the increasing electronic records 
challenge within the government and develop guidance and 
policies, and promulgate those guidances and policies and 
update our regulations to help agencies know what to do to 
better manage their electronic records.
    So there was a long period of time when we spent a good 
deal of resources on that issue, and it has only been in the 
last probably 18 to 24 months, perhaps a little longer than 
that, that we have gotten a body of guidance and regulation in 
place that we are able to now hold agencies more accountable 
specifically to electronic records issues across the 
government.
    So it has been, as you observe, a long journey for us, and 
it has probably taken us too long, but that is the path that we 
have gone on in trying to be responsive to the issues that have 
been brought before us by GAO, as well as the environment that 
we find ourselves in with the Federal agencies.
    Mr. Ferriero. Could I respond to that also?
    Mr. Cuellar. Yes, sir.
    Mr. Ferriero. As the head of the agency, I treat these 
reports, as well as the reports from my Inspector General, very 
seriously. These are, in lots of cases, early warning signs for 
me in terms of where we need to correct action and, as I said, 
these reports have my full attention.
    Mr. Cuellar. Anybody else?
    [No response.]
    Mr. Cuellar. And I will close up with this, Mr. Chairman. I 
guess, in trying to improve the process and get better results, 
if a recommendation comes in and you truly disagree with it, 
because there will be times that we are going to disagree. GAO 
is not 100 percent correct, just like we are never 100 percent. 
Then I understand you can go ahead and have a dialog on that. 
But once you all accept the recommendation, we are hoping that 
at that time that you all, as fast as possible, within certain 
contours, implement that as soon as possible.
    Mr. Chairman, I will just ask GAO. Any thoughts on that?
    Ms. Melvin. Whenever we make the recommendations, we are 
hopeful that an agency will consider them in the fullest. 
Again, our concerns had not been so much with the fact that 
they were not planning toward efforts, but that we did not see 
the level of investment in those efforts, if you will, to make 
sure that there were----
    Mr. Cuellar. Excuse me. The commitment, right? I think that 
is the term that you used in here, the commitment?
    Ms. Melvin. We wanted to see definitely a greater 
commitment to trying to get a governmentwide look at what was 
happening in Federal records management. We did see the agency 
take steps, but steps that, from our position, fell short of 
what we thought were necessary for them to have or to provide 
the necessary oversight and to be in a position to influence 
agencies, if you will, to have better records management 
programs in place.
    Mr. Cuellar. OK, thank you. And I know it is difficult, 
complex, ever-changing, but I appreciate all the efforts that 
you all do. Thank you.
    Mr. Clay. Thank you, Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Mr. Clay. Mr. McHenry, you are recognized for 5 minutes.
    Mr. McHenry. Dr. Ferriero, just to followup with what we 
have discussed before, in terms of improving morale. What has 
your approach been? What progress have you made?
    Mr. Ferriero. I am putting a lot of faith in the 
governmentwide employee viewpoint survey, and I am pleased to 
report that 83 percent of NARA employees participated this 
year, compared to 52 percent last year. They got personal email 
messages from me; they got voicemail messages from me; I did 
video to encourage people to participate; and here again we are 
expecting the results within a couple of weeks.
    This will be another baseline for me in terms of just how 
bad things are in terms of morale. We have established a task 
force to help me work through these issues as we start getting 
the results to improve the environment, the culture of the 
agency.
    It has my full attention. As I said before, this is the 
most important thing that I have to worry about. We have to get 
this right in order to do everything else that the agency has 
before it.
    Mr. McHenry. You have served at large institutions with 
significant technology, both New York universities, more of a 
quasi-governmental agency. You have had a variety of 
information protection background. How far behind or ahead 
would you rank the Archives and what you are walking into in 
comparison to those other sectors you have worked in?
    Mr. Ferriero. Is your question around technology or is it 
around protection of collections?
    Mr. McHenry. Both.
    Mr. Ferriero. OK. In terms of technology, it feels very 
similar to probably the environment 15 years ago in terms of 
what I would describe as everyone doing their own thing. This 
figure that I cited, $80 billion a year on information 
technology, is a huge figure, and it reminds me very much of 
the university environment years ago where every department was 
able to do their own thing, buy their own systems, and then 
enterprise systems came in and kind of reduced the costs 
associated with that.
    So there is some of that I see at work now. I think some of 
the ideas around cloud computing that I am hearing will address 
some of those issues. And there are some examples of enterprise 
systems that are underway, but it is in the early stages, I 
would say, reflective of the amount of money that is being 
spent.
    On the collection side, we have established a holdings 
protection task force. As you know, we have had some problems 
in terms of materials that are lost, and we are serious about 
correcting those problems and creating a sense of urgency 
around that within the agency, all 44 facilities across the 
country.
    Mr. McHenry. Is it a greater challenge, in your view, the 
protection of electronic data, rather than some of the 
traditional paper forms of data collection? I mean, do you have 
sort of a greater concern with one----
    Mr. Ferriero. It is more complicated. It is more 
complicated because of threats to access to destroy electronic 
information, to change it. So ensuring the authenticity of that 
original record is certainly more complicated than the paper 
environment.
    Mr. McHenry. OK. Because Archives certainly has a long 
history of being able to protect that traditional data.
    Mr. Ferriero. And to ensure that 100 years from now you are 
looking at what was originally created. Exactly.
    Mr. McHenry. And is that part of the struggle, being able 
to create a system by which future generations will be able to 
retrieve this electronically?
    Mr. Ferriero. And that those digits get migrated as 
technology changes. Exactly.
    Mr. McHenry. Well, thank you. Thank you for your candor.
    Mr. Clay. Thank you, Mr. McHenry.
    Mr. Wennergren, the DOD has established a standard for 
records management applications that has been endorsed by NARA. 
Is this something that the Department simply created once or is 
it continually revised and improved?
    Mr. Wennergren. Yes, sir, it is a continuing process. We 
have actually dozens of tools from many different companies, 
different operating systems. We have a whole market basket of 
tools that have gone through this compliance process, so we 
look at them, we make sure that they are going to meet the 
needs, and then we publish those lists of preferred products, 
if you will. And then our agencies can go buy those products 
and be assured that they are going to get a product that works 
for them. With NARA's endorsement, it has sort of opened the 
door to others to take advantage of that too.
    We also have examples inside of the Department of Defense. 
The Navy, for example, has a records management compliant 
product. It is on hundreds of thousands of desktops; it has 
millions of records. So we have great successes within the 
Department of people using those tools, but now we have a lot 
of interest from others. So we have other Federal agencies, 
States, local governments, even some other nations that have 
come to find out what these preferred products are and how they 
can take advantage of using them too.
    Mr. Clay. So you are pretty much spreading the gospel, so 
to speak, to other agencies and to other countries about 
records management.
    Mr. Wennergren. Yes, sir. If we get a line to secure 
products that work well and are interoperable, that is always 
the best approach. So we are happy to have any agency come ask 
us for the information about how we do the compliance process. 
The products that are certified are available on the Web site, 
so anybody can go look at them and go buy the one that they 
choose.
    Mr. Clay. Exactly how many agencies would you estimate have 
adopted some of your practices?
    Mr. Wennergren. See, I don't have a good answer on that, 
sir, because what I know is that lots of people come and ask 
for information, but at DOD I don't keep track of then what 
they go and buy. So I have a list of like literally 80 or 90 
organizations that have come and asked us about how do you do 
the certification testing and all that sort of stuff, but then 
we don't keep track if the city of Illinois came and was 
interested, we don't actually know whether they go and buy them 
or not, because they would go buy them directly from the 
vendor.
    Mr. Clay. OK. Thank you for that.
    Ms. Melvin, examining the challenges of electronic records 
is not something new for GAO. However, this administration has 
been more proactive about transparency than previous 
Presidents. How will the Open Government Initiative help with 
electronic records management?
    Ms. Melvin. Well, the Open Government Directive that was 
put in place does have within it a requirement that agencies 
include in their plans a link to a Web site that would provide 
information on their records management programs.
    Mr. Clay. Let me ask you about Members of Congress. A lot 
of us have BlackBerries. We have official business on there; we 
also may get an email from our children, from our parents, from 
our wives, saying, ``on your way home would you stop at the 
store and get some milk.'' I mean, is it up to the Members to 
decide what is official and what is not? If we wanted to save 
our records for our offices, we pretty much make that 
determination?
    Ms. Melvin. That is one of the critical issues that we 
point to in the statement that I provided to you today. From 
the stand of email in particular, there are numerous challenges 
relative to the complexity, relative to the content, the 
context of the email messages.
    And this is in light or around the context that 
historically getting users to really be responsible for records 
management is a difficult task, so you are compounding that by 
asking them to identify specific emails that may be a record or 
non-record. It is still a challenge; it is one of those that we 
point out is very critical for agencies to have to make a 
determination as a part of their records management programs 
how in fact they are going to define what a record is, what an 
email record is, and how they will categorize that information 
versus personal or non-record information. It is a very 
difficult task.
    Mr. Clay. Anyone else on the panel have any suggestions? 
Mr. Wennergren.
    Mr. Wennergren. Well, sir, I don't know if I have a 
suggestion, but you have hit upon one of the crucial challenges 
as you move to this electronic records management world, that, 
in the old days you wrote a letter and you had somebody who was 
the correspondence clerk, and they knew to archive that letter.
    But, indeed, now everyone from our junior enlisted 
personnel to our senior admirals and generals, you have to 
decide you are creating a record and then make sure that the 
email from your wife is deleted and the email that is a record 
is saved.
    So, again, one of the things that we all need to work on 
together is making sure that the electronic tools that are 
available take advantage of metadata and things like that to 
try to help make those decisions for you so the user isn't 
stuck trying to make those decisions on their own.
    Mr. Clay. I see. I see. Thank you very much.
    Let me thank the panel of witnesses for their testimony 
today. This panel is dismissed. Thank you.
    I would now like to introduce our second panel. Even though 
none of the witnesses are Maryland Terps, we welcome them to 
this hearing. [Laughter.]
    Our first witness will be Dr. Gregory Hunter, a professor 
at the Palmer School of Library and Information Science at Long 
Island University, C.W. Post Campus. He is director of the 
Certificate Program in Archives and Records Management at LIU. 
He received his Ph.D. in American History from New York 
University and is a Certified Records Manager and Certified 
Archivist. Welcome to the committee.
    Our next witness is Ms. Carol Brock, here today 
representing ARMA International. Ms. Brock is a certified 
records manager with 23 years experience. In 2007, with Ms. 
Brock's leadership, GAO earned the Archivist Achievement Award. 
She is currently pursuing her Ph.D. in digital preservation and 
information policy at the University of Texas at Austin.
    After Ms. Brock we will hear from Ms. Anne Weismann, chief 
counsel for Citizens for Ethics and Responsibility in 
Washington. Ms. Weismann works extensively on access to Federal 
electronic records, as well as transparency in government. She 
previously served as Deputy Chief of the Enforcement Bureau at 
the Federal Communications Commission and as an Assistant 
Branch Director at the Department of Justice.
    I thank all of our witnesses for appearing today and look 
forward to their testimony.
    Of course, it is the policy of the subcommittee to swear 
you in. Would you please rise and raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    I ask that each witness now give a brief summary of their 
testimony. Please limit your summary to 5 minutes. Your 
complete written statement will be included in the hearing 
record.
    Dr. Hunter, please begin with your opening statement.

STATEMENTS OF GREGORY S. HUNTER, ASSOCIATE PROFESSOR OF LIBRARY 
  AND INFORMATION SCIENCE, LONG ISLAND UNIVERSITY, C.W. POST 
 CAMPUS; CAROL BROCK, CERTIFIED RECORDS MANAGER, REPRESENTING 
ARMA INTERNATIONAL; AND ANNE WEISMANN, CHIEF COUNSEL, CITIZENS 
          FOR ETHICS AND RESPONSIBILITY IN WASHINGTON

                 STATEMENT OF GREGORY S. HUNTER

    Dr. Hunter. Chairman Clay, Ranking Member McHenry, and 
members of the subcommittee, I do want to thank you for giving 
me the opportunity to testify today. The only thing that I 
would add to my background that you did mention is that, in 
addition to my university work, I did have a career as a 
working records manager; I was manager of corporate records for 
ITT World Headquarters, and before that I was archivist for the 
United Negro College Fund. So I come by my teaching this 
honestly, having done it for many years, and I continue to 
consult for government and organizations in this area as well.
    We did hear, with the previous panel, about the status of 
electronic records management. I didn't think I would be able 
to add anything to what we had just heard. I thought I could 
perhaps add to the committee's deliberations by talking a bit 
about some best practices from the private sector, from my 
experience in my 30-year career that may be applicable to some 
of the issues that the subcommittee is wrestling with.
    In my written testimony there were several areas that I 
discussed at length. Today I am just going to highlight briefly 
a couple of those areas for you.
    The first area deals with the definition of a record. The 
GAO reports that were mentioned previously have one theme in 
common: that the agencies are spending a great deal of time 
sorting out what is a record from a non-record. And your 
example with the BlackBerry is relevant as well to this. This 
consumes a great deal of agency time and there is a reason for 
this, certainly: the records have to be managed according to 
Federal requirements; whereas the non-records don't maintain 
that burden.
    What I want to suggest is that, in the private sector, what 
I believe people are moving toward is less of a focus on record 
or non-record. In the world of electronic discovery, 
electronically stored information is what is discoverable, not 
record or non-record; and the definition of a Federal record 
certainly is in law now. But the subcommittee may want to begin 
at the very beginning, perhaps, in its deliberations and decide 
whether or not the existing definition of record and non-
record, legacies from the 1950's, really are fruitful for our 
current discussion.
    In the private sector, organizations will define much more 
as record. Many of those records have short-term value, but by 
defining them in that way we spend less time sorting out record 
from non-record and we spend much more time trying to manage 
those resources efficiently.
    So the first area in the written testimony talks about 
record versus non-record.
    The second area is the status of records management. And if 
people don't understand what a record is, certainly there will 
be difficulty having them understand what records management is 
and why they should care about that. In the written testimony, 
I spend some length talking about pushing responsibility for 
records management down within the hierarchy. Records 
management has to be seen as something helping someone's 
business processes. It has to be seen as something that is 
worth doing because it assists the agencies, not just because 
there is a requirement for that.
    So making records management emphasizing the customer 
service aspect of it, pushing responsibility down the 
organizational chain. I know we are dealing with big problems, 
$80 billion worth of budget and electronic tools to help solve 
this. But this still ultimately is a people profession and a 
people problem, and pushing that responsibility down the chain, 
making managers, not just the agency heads, but front-line 
managers, responsible for the implementation of records 
management policies and procedures.
    In the private sector that is done through the human 
resources structure, making certain that records management 
responsibilities are detailed in your job description, that you 
are accountable for it, that you are reviewed on that. So I do 
recommend both for managerial responsibility and records 
liaisons that NARA and agency staff look at ways to push that 
responsibility down.
    One last thing that I would like to talk about just a bit, 
because I know compliance is a concern and has been a concern 
in the previous panel. I would like to talk a little bit about 
compliance and, again, talk about a private sector model. The 
private sector model is that the most successful records 
management programs within corporations are working with the 
people in the organizations responsible for compliance. They 
are partnering in the corporate world the compliance 
departments that were established after Sarbanes-Oxley, in 
particular.
    In the university settings, this is working with internal 
audit. And I do want to point out to the committee that one of 
the best models of this is a project done by Indiana 
University. Under funding from the National Historical 
Publications and Records Commission, they did establish 
guidelines for working with internal audit to the success of 
both parties.
    So let me conclude with just a couple of remarks.
    Technology has a way of bringing issues to the fore, and as 
I was preparing this testimony I was rereading a report from 
1906 about new technologies and agency responses to that. 
Agency managers were concerned about efficiency; legal counsel 
was concerned about evidence. What was interesting to me, 
though, was that the report was from 1906; from 1906, not 2006. 
The report was by a group called the Keep Commission, and they 
were very concerned about Federal agencies implementing the 
change from the older technology of letter press books to the 
brand new technology of carbon paper. So the issue sounded 
strangely familiar to me and maybe in 2106 your successor will 
be here with a slightly different twist on this.
    But you will see in the written testimony I talk much more 
about private solutions, and I believe that this kind of 
dialog, public-private discussions will lead to some of the 
best practices, and we hope that, as citizens, that it will 
help Federal agencies as well as private sector organizations.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Hunter follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.036
    
    [GRAPHIC] [TIFF OMITTED] T2947.037
    
    [GRAPHIC] [TIFF OMITTED] T2947.038
    
    [GRAPHIC] [TIFF OMITTED] T2947.039
    
    [GRAPHIC] [TIFF OMITTED] T2947.040
    
    [GRAPHIC] [TIFF OMITTED] T2947.041
    
    [GRAPHIC] [TIFF OMITTED] T2947.042
    
    Mr. Clay. Thank you, Dr. Hunter. Appreciate that analogy 
from the other century.
    Ms. Brock, you may proceed.

                    STATEMENT OF CAROL BROCK

    Ms. Brock. Thank you, Chairman Clay and members of the 
subcommittee, for inviting ARMA International to this hearing 
on Federal electronic records management. I have been a Federal 
records management professional for 23 years and have served 
several Federal agencies and worked closely with the National 
Archives in my role as a Federal records officer. I am an 
active member of ARMA International, the Association for 
Information and Image Management, and the Federal Information 
and Records Managers Council.
    We have been producing electronic records since the 1980's, 
yet we are not adept at managing them. In an effort to better 
address electronic records management issues, I returned to 
school a year ago to work on a Ph.D. in digital preservation 
and information policy. You can understand that this is near 
and dear to my heart.
    The question of the day is: Why are electronic records so 
difficult to manage? I will address three reasons why. First, 
managing electronic records inherits all of the traditional 
records management challenges. Second, managing electronic 
records is fraught with technology challenges and requires 
consistent records management competencies. And, third, 
managing email poses additional challenges.
    I also provide some recommendations, including, first, 
empowering and funding NARA; second, establishing a role for an 
agency chief records officer; and, third, establishing a 
principle-based approach to records management.
    So what are the traditional records management challenges? 
There may be no management involvement or expectations. Senior 
officials do not see records management as a vital agency 
function. Also, there are no meaningful or sustaining 
resources. There are limited staff resources to do mission 
critical work. Agencies no longer have support staff to perform 
administrative tasks and workloads continue to increase as 
staff numbers decrease. No staff training or imperatives exist.
    Records management awareness requires continuous 
enterprise-wide training. Still, many Federal agency staff do 
not see their work product as records and simply do not have 
time for training. Also, no enterprise-wide guidance or 
expectations exist. Record status is generally determined at 
the end-users desktop. Staff mingle personal materials with 
their business records.
    What are the technology challenges associated with managing 
electronic records? Technology is not a constant; principles 
are constant. Electronic media obsolescence is a well known 
issue. If technology is not reliable, let's employ generally 
accepted recordkeeping principles. More records does not equal 
better recordkeeping. Popular wisdom is to save everything 
because storage is cheap. This perception overlooks the cost of 
staff searching for information to do their jobs, as well as 
the cost of fulfilling FOIA, privacy, and discovery requests.
    Also, records management must be consistent across the 
enterprise. Agency staff are as wired as everyone else. Staff 
are storing records on hard drive, thumb drives, home computer 
systems, and in the cloud, all of which are outside of an 
agency's centralized span of control.
    Finally, what are some additional challenges associated 
with managing email? Staff use email for personal productivity, 
to manage their projects, store their drafts and reference 
materials, find their records and track their work. Used in 
these ways, email may never make it into the agency's official 
recordkeeping systems. Identifying records is not as easy as 
creating email; an email capture can be complicated.
    So what we can do, we can confirm our benchmarks: the 
National Archives guidance, the ISO standards on information 
and documentation, and the generally accepted recordkeeping 
principles. Also, we can create expectations and public policy 
outcomes. What is needed is a commitment to create, manage, and 
grow a compliant records management program. If Congress 
declares agency records management a priority and links agency 
budgets to compliance, we will see results.
    Consider establishing chief records officers in each and 
every agency. And I can say more on that later. We can give 
NARA greater visibility and authority, insisting on proven 
agency compliance with scheduling, dispositions, and effective 
management of electronic information assets. My perception is 
that NARA does not have the authority to fulfill their 
recordkeeping mission.
    And, finally, we can integrate enduring records management 
principles into the operations of every Federal agency. An 
agency should establish a recordkeeping program that is 
overseen by senior executives; informed by clear policies and 
procedures to train and guide personnel; and is transparent 
through documentation available to all personnel, interested 
parties, and regulatory and enforcement bodies. And I have a 
copy of the principles and detailed maturity model, if anyone 
would care to see it.
    Thank you again for this opportunity to comment. I look 
forward to answering your questions.
    [The prepared statement of Ms. Brock follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.043
    
    [GRAPHIC] [TIFF OMITTED] T2947.044
    
    [GRAPHIC] [TIFF OMITTED] T2947.045
    
    [GRAPHIC] [TIFF OMITTED] T2947.046
    
    [GRAPHIC] [TIFF OMITTED] T2947.047
    
    [GRAPHIC] [TIFF OMITTED] T2947.048
    
    [GRAPHIC] [TIFF OMITTED] T2947.049
    
    Mr. Clay. Thank you so much, Ms. Brock, for your testimony.
    Ms. Weismann, you may proceed for 5 minutes.

                   STATEMENT OF ANNE WEISMANN

    Ms. Weismann. Mr. Chairman and Ranking Member McHenry, 
thank you for the opportunity to testify before you today about 
the status of Federal electronic records management. I last 
testified before this committee in December 2009 on the 
priorities and roles NARA and new Archivist David Ferriero 
should adopt. My testimony highlighted the dismal state of 
electronic recordkeeping at that time across nearly all 
agencies in the Federal Government. Unfortunately, the 
situation has not improved in the intervening 6 months.
    Two years ago, after conducting an online survey submitted 
to more than 400 agency records managers, my organization, 
CREW, reported that the vast majority of agencies failed to 
take advantage of existing technology to preserve their 
electronic records, and that even knowledgeable agency 
employees lacked the basic understanding of their recordkeeping 
response obligations.
    NARA's more recent self-assessments confirm these results 
and reveal, as we have heard today, the extremely troubling 
statistic that 79 percent of agencies face a moderate or high 
risk of improperly destroying their records.
    Examples abound of the widespread problems within the 
Federal Government in managing and preserving its electronic 
records. Our litigation against the Executive Office of the 
President and NARA brought to light a wealth of evidence of the 
continuing and systemic failure of the Bush White House to 
preserve and manage its emails.
    In a recently released report, EOP documented the fact the 
Bush White House archiving system failed to capture 89.4 
percent of the universe of known emails for 21 non-consecutive 
days. That a President failed to preserve nearly 90 percent of 
some of the most valuable historical documents is both shocking 
and completely unacceptable.
    As a frequent requester under the FOIA, CREW often 
confronts an agency's inability to locate responsive email 
records. The Veterans Affairs, for example, recently explained 
to us its failure to locate a key email was due to the practice 
of the agency to store its emails on backup tapes that 
periodically were recycled, even in the face of a pending FOIA 
request or FOIA lawsuit.
    While these persistent problems present great challenges, 
we believe Congress can provide a solution through legislative 
amendments to the Federal Records Act and the Presidential 
Records Act, and my written testimony outlines some of our 
proposals in that regard.
    But I would note that the Federal Records Act carves out an 
enforcement role for the Attorney General, but gives the 
Archivist no sway over whether and how the Attorney General 
exercises that authority. And I think the Department of 
Justice's handling of the apparently missing emails of former 
OLC Official John Yoo illustrates the problem with the existing 
statutory scheme. In July 2009, the Office of Professional 
Responsibility issued a report of its investigation into the 
role Mr. Yoo played in the development of the so-called torture 
memos. That report, made public in February of this year, notes 
explicitly the investigation was hampered by the disappearance 
of all of Mr. Yoo's emails.
    Almost immediately NARA asked DOJ to investigate and report 
back to it, and CREW sent a letter to Attorney General Holder 
also requesting an investigation. Four months later, DOJ has 
yet to respond to either request, and the public and Congress 
are no closer to learning the truth about how and why emails 
central to an investigation of critical public importance are 
missing.
    Clearly, there is something wrong with a law that says the 
public must sit by idly while agency heads, including the 
Attorney General, refuse to act.
    Nearly 20 years ago, while an attorney at the Department of 
Justice, I engaged in a vigorous internal debate over whether 
email was even a record that had to be preserved with all of 
its metadata. Today this issue is long settled as a matter of 
law. But as a matter of practice, agencies continue to treat 
emails as readily discardable, even while their value has grown 
exponentially.
    Just look at the currency Elena Kagan's Federal and 
Presidential electronic records have as Congress evaluates her 
nomination for the Supreme Court. Simply stated, emails are the 
gold we mine for an answer to questions that perplex and worry 
us, or the truth behind an administration's or agency's 
controversial decisions and actions. Yet, we fail to handle 
these treasures with care. Congress must act to ensure our past 
will be available for future generations to study and learn 
from.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Weismann follows:]

    [GRAPHIC] [TIFF OMITTED] T2947.050
    
    [GRAPHIC] [TIFF OMITTED] T2947.051
    
    [GRAPHIC] [TIFF OMITTED] T2947.052
    
    [GRAPHIC] [TIFF OMITTED] T2947.053
    
    [GRAPHIC] [TIFF OMITTED] T2947.054
    
    [GRAPHIC] [TIFF OMITTED] T2947.055
    
    [GRAPHIC] [TIFF OMITTED] T2947.056
    
    [GRAPHIC] [TIFF OMITTED] T2947.057
    
    [GRAPHIC] [TIFF OMITTED] T2947.058
    
    [GRAPHIC] [TIFF OMITTED] T2947.059
    
    [GRAPHIC] [TIFF OMITTED] T2947.060
    
    [GRAPHIC] [TIFF OMITTED] T2947.061
    
    [GRAPHIC] [TIFF OMITTED] T2947.062
    
    [GRAPHIC] [TIFF OMITTED] T2947.063
    
    [GRAPHIC] [TIFF OMITTED] T2947.064
    
    [GRAPHIC] [TIFF OMITTED] T2947.065
    
    [GRAPHIC] [TIFF OMITTED] T2947.066
    
    [GRAPHIC] [TIFF OMITTED] T2947.067
    
    [GRAPHIC] [TIFF OMITTED] T2947.068
    
    [GRAPHIC] [TIFF OMITTED] T2947.069
    
    [GRAPHIC] [TIFF OMITTED] T2947.070
    
    [GRAPHIC] [TIFF OMITTED] T2947.071
    
    [GRAPHIC] [TIFF OMITTED] T2947.072
    
    [GRAPHIC] [TIFF OMITTED] T2947.073
    
    [GRAPHIC] [TIFF OMITTED] T2947.074
    
    [GRAPHIC] [TIFF OMITTED] T2947.075
    
    [GRAPHIC] [TIFF OMITTED] T2947.076
    
    Mr. Clay. Thank you so much, Ms. Weismann.
    We will go to the question and answer period and I 
recognize the ranking member from North Carolina.
    Mr. McHenry. Ms. Weismann, I appreciate your testimony. In 
your written testimony you have a recommendation for how we can 
actually ensure that the President is required to keep the data 
that he is required to keep. I appreciate what you are saying; 
I think you make very valid points about the last 
administration, about their lack of transparency. My question 
to you is what can we put in place now so that doesn't happen 
again?
    Ms. Weismann. Well, this is where I think you can consider 
amendments to both the Federal Records Act and the Presidential 
Records Act. I mean, in part through our litigation, the White 
House now has in place what is an effective recordkeeping 
system, but this has been a problem that has plagued us through 
many presidencies, and we have no assurance, especially as 
technology changes, that the next president will be out of 
compliance once again, and that is why we think it is 
imperative that, at a minimum, you give the Archivist some 
oversight and responsibility to at least ensure that the 
President has in place an appropriate system.
    I understand and appreciate the constitutional problems 
with dictating to the President what he or she must save and 
cannot save specifically, but I don't think you come close to 
those problems if you are trying to just enforce the 
responsibility that they have a system in place.
    Mr. McHenry. So that means enhancing the Archivist's role?
    Ms. Weismann. Yes. At present, the Archivist basically has 
no role while a President is in office.
    Mr. McHenry. Aside from outside groups, who is the cop here 
to ensure that these records are kept?
    Ms. Weismann. There really is no cop, and that is part of 
the problem.
    Mr. McHenry. So it falls to outside groups.
    Ms. Weismann. Well, even for outside groups there is no 
role, because the courts have held that, with some limited 
exceptions, because the statute doesn't really spell out a role 
for outside groups, that we have no ability essentially to sue. 
Now, there are some limited exceptions. But if you have a 
President who completely ignores his responsibilities, I think 
it would fall to Congress, through legislation, to correct the 
situation.
    Mr. McHenry. Is this a systemic issue that is made worse by 
different administrations, but at root is a systemic issue 
throughout the Federal Government?
    Ms. Weismann. Yes, it is a systemic issue throughout the 
government, without question, and I think this leads to our 
second point, as to why we need some legislative fixes to the 
Federal Records Act, because the roles and responsibilities 
that the Archivist has even in that arena I think are still 
limited. And I think the best example of that is the fact that 
this critical self-assessments, the Archivist really has no 
legal way to compel agencies to comply.
    And in that arena, as well, the courts have recognized very 
limited roles for outside groups like mine, so there too we are 
in favor of expanding private rights of action, but we also 
think that you can beef up the administrative enforcement 
mechanisms under the Federal Records Act that will give the 
Archivist greater authority.
    Mr. McHenry. Would you be willing to submit your 
recommendations to this committee?
    Ms. Weismann. Absolutely.
    Mr. McHenry. I certainly appreciating hearing those. Do you 
think our Presidential library system, as constructed now, 
makes it more difficult for you to retrieve those records going 
back years?
    Ms. Weismann. I think there are a lot of reasons why they 
are difficult to retrieve. I mean, I think too often each 
Presidential library tends to operate as an individual fiefdom, 
and I also think you have problems with the state of records 
that vary dramatically between administrations. I mean, I think 
if we can get to a place where we are systematizing, if that is 
a word, both what Presidents are creating and how we are 
preserving them and what agencies, we will overcome that 
battle.
    Mr. McHenry. Absolutely.
    And that goes right into, Dr. Hunter, your definition of 
record. Basically, the Federal Government is using the 1950's 
definition, when the rest of society is using a much more 
updated version, is that right?
    Dr. Hunter. The Federal definition actually is the same one 
that most States use. Most States adopted the Federal 
definition. Private sector doesn't have to. Many private sector 
organizations use a very similar definition. But in the world 
of digital recordkeeping, there are others who are looking at 
it, saying that we are spending more time trying to slice 
something very thin that may not be worth the effort; that we 
have to manage it anyway, especially if we are in a discovery 
environment. We have to find it no matter what it is called.
    So, therefore, perhaps we need to look at the fundamental 
and try to minimize that sorting and slicing and dicing that 
isn't really giving us much advantage.
    Mr. McHenry. How far behind do you think the Federal 
Government is in keeping records, compared to the private 
sector, compared to private institutions?
    Dr. Hunter. Well, if we were doing this in front of some 
private sector people, they would be saying the Federal 
Government may be ahead of where they are.
    Mr. McHenry. Really?
    Dr. Hunter. I think my point is that this is very 
difficult----
    Mr. McHenry. How would you say that? Is it in terms of the 
technology of the Federal Government uses, or is it the 
policies or is it the people? What is the advantage?
    Dr. Hunter. This is very difficult work, and as I say in 
the written testimony, this is a line responsibility. So some 
private sector organizations have been able to push that 
responsibility in the same way that human resources policies, 
people are accountable for complying with that; fiscal 
policies, there are cops, to use your word, who make certain 
that front-line managers comply with those policies; if those 
same cops are able to say are you complying with the records 
management policy.
    So in some ways, in some private sector areas with 
compliance they have been able to do better. There are some 
private sector areas that would love to be able to have, from 
the previous panel, to have an organization like the Department 
of Defense to push for its business purposes a standard with 
the full package that then becomes adopted otherwise. So this 
is just very difficult work that must succeed as an individual 
line responsibility, and it is harder in the Federal 
Government, perhaps, because there are more people with that 
responsibility.
    Mr. McHenry. Thank you. Thank you for your testimony.
    Mr. Clay. Thank you, Mr. McHenry.
    Dr. Hunter, I found your example of the Indiana University 
archives working on an electronic records study with an NHPRC 
grant interesting. We continue to be amazed by the scope and 
importance of this vital program. You mentioned that you do not 
think NARA should conduct audit reviews. Can you explain why 
not?
    Dr. Hunter. NARA, I believe, certainly has the 
responsibility and should do audits, but all day long I have 
been hearing the question of is NARA, as an entity, and in the 
private sector we have the same issue, is the records 
management department, when it says you are not following 
orders, do they have the clout, are they the cop to force a 
change in practice. And perhaps one solution legislatively is 
to make NARA a bigger sheriff in this, to give them more 
authority.
    Another potential solution would be to look at the other 
sheriffs who are there with the other line responsibilities and 
see perhaps a strategic partnership might be the more cost-
effective way to go. So certainly I don't think NARA has the 
responsibility, but I am asking all parties to consider what 
might be the best cost-effective way to discharge that 
responsibility.
    Mr. Clay. Thank you for that response. Can you please 
elaborate on the role of records liaisons and how you recommend 
agencies can be encouraged to utilize them?
    Dr. Hunter. Records liaisons very often, again, at the 
grassroots level, as opposed to the agency head level, there 
needs to be someone in every office who knows what is going on 
with the records and needs to be empowered to do what is right 
and efficient with those records. Sometimes those people are 
well trained and they are enthusiastic, and other times they 
are people who someone may think they have some more time on 
their hands, so they can do this as well.
    But again, that responsibility for that key role at the 
Department level, this will break down unless the people are 
properly trained, but there also is a system of accountability 
that, in the human resources environment, that the job 
descriptions reflect this responsibility; that they are 
evaluated on it; that their manager, in turn, is evaluated on 
what they do.
    So that is why I talk about this as being hard work. At 
some point it does get down to the level of who is the records 
liaison, the person responsible for the digital system or the 
paper-based system. Do they know what they are doing and are 
they rewarded for taking the initiative and doing it right, or 
does no one even notice that?
    Mr. Clay. Thank you for that response.
    Ms. Brock, your impression of records liaisons?
    Ms. Brock. Traditionally, records liaison officers are at 
too low a level to make a difference. What we really need is 
information management officers, professionals who understand 
the scope, breadth, and depth of the mission and the 
opportunities there.
    Mr. Clay. How can Federal agencies use ARMA International's 
principles-based approach, using generally accepted 
recordkeeping principles to improve their records management 
program?
    Ms. Brock. Chairman Clay, thank you for asking me that. 
There are basic competencies in these principles: 
accountability, transparency, integrity, protection, 
compliance, availability, retention, and disposition. And we 
have five different levels of compliance with each. We could 
use this as a scorecard for judging programs and for what they 
should be aiming to achieve for compliance. I also see that we 
can use these principles to design our training, to actually 
buildup our programs, and to monitor and direct how we conduct 
our procurements for these tools to handle our records.
    Mr. Clay. Thank you for that response.
    Let me ask Ms. Weismann what specific amendments to the 
Federal Records Act do you recommend to expand the Archivist 
oversight and enforcement responsibilities?
    Ms. Weismann. Well, I think, first of all, they need to be 
given the authority and clear responsibility to conduct 
themselves an investigation when they have evidence that there 
has been a violation of the Records Act. I think, as I outlined 
in my testimony, the next step would be not only to make that 
public, but when they find such evidence, we would recommend 
that it be mandated a referral to the agency inspector general.
    And I think this is addressing in part something Dr. Hunter 
said about looping in others. There already is, within each 
agency, an inspector general that has authority to conduct 
investigations and has experience with that; and I think that 
the findings of that should be made public. And, again, this is 
where we think if the agency still chooses to do nothing in the 
face of evidence of a problem, that there should be a private 
right of action.
    We have listened very carefully over the years to NARA's 
view on its authority, for example, and responsibility to 
conduct investigations. CREW actually brought a lawsuit against 
NARA a year or so ago based on their failures in 2000 to 
conduct investigations of agencies, and we dropped our lawsuit 
after we met with them and they outlined for us their plan to 
do the self-assessment and a multi-phase plan that also 
includes inspections of agencies. And we are truly heartened by 
the renewed vigor that Dr. Ferriero is trying to bring to NARA, 
and I think he really is committed to these principles.
    But the problem is that we have seen in NARA, under other 
archivists, that it has taken a very passive role and a very 
passive role of what its responsibilities are, so we think it 
is really critical that the responsibility and obligation, as 
well as the authority to oversee agencies, has to be made 
explicit in the legislation.
    Mr. Clay. And I certainly appreciate what you are saying; 
we need to bolster their authority through laws.
    Ms. Weismann. Exactly.
    Mr. Clay. Out of curiosity, how would you treat the Federal 
Election Commission records and the candidate filings the same 
as all other Federal records, or do you see a need for some 
type of special treatment there?
    Ms. Weismann. I don't think there is any need for special 
treatment. And I recognize the sort of complexities in relying 
on a definition of what is a record and what isn't, but in 
large extent, within the Federal Government, each agency is 
going to decide what is a record based on its central mission, 
and I think there is already enough within the law itself to 
cover what entities like the Federal Election Commission should 
be preserving. So I don't necessarily see a basis for special 
treatment; I think it is more an issue of compliance.
    Mr. Clay. OK. Thank you very much.
    We will now go to the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I do think this is a 
very important hearing. I regret that I was unable to be here 
for its beginning, and have only been able to come to hear part 
of what our second panel has had to say. I must say first that 
I really think that the government's responsibility for 
recordkeeping differs markedly from the private sector. The 
private sector shreds. The private sector wants to get rid of a 
lot of stuff, especially if they think we are coming.
    But, actually, it is efficient for them to get rid of a 
great deal of what they have, and they are at pains to do it. 
They, of course, have to have some records, and they figure 
out, because it is an expense to keep records. They probably 
are better at figuring out which ones to keep and which ones 
not to keep, given the expense associated with it.
    The Federal Government, on the other hand, has a 
governmental responsibility to maintain records that others 
would consider trivial, and somebody has to decide where that 
line gets drawn. This is often the history of important events 
are hidden in very small and seemingly trivial communications.
    I was impressed by the figures provided us before this 
hearing, that almost 80 percent of agencies are either at high 
or moderate risk of improper destruction of records. That is 
very scary, the word destruction. That brought me to an 
interest I have had in the growing role of emails. There are 
some agencies, like those in the private sector, that 
communicate almost exclusively through emails. It is becoming 
often here, as elsewhere, the central mode of communication. 
Are there special challenges that are unique to email in 
recordkeeping by government? Ms. Brock or anyone else.
    Ms. Brock. Yes, ma'am, there are special challenges in 
managing email. Email has many components that can be hard to 
capture as a group. It is very hard to tell whether an email is 
a record or is not. For example, in GAO's Report 08742, our 
National Archives and selected agencies need to strengthen 
email management. They include this wonderful flowchart on 
whether or not it is an email, and it starts with, ``is it a 
record'' and it is ends with, ``if in doubt, ask your records 
officer.''
    Now, if we each had one of these stickers on our computer, 
we would go crazy. But it does give us a flowchart for 
determining records status.
    We do indeed conduct our entire lives on email, and the 
separation between reference, record, and personal 
correspondence is also very fuzzy.
    Ms. Norton. Somebody has to figure it out so there is some 
uniformity here. Of course, these agencies are very different, 
and you do not expect absolute uniformity, but you have to have 
some baseline to begin with as new forms of communication 
emerge. God help us when twittering becomes a major mode of 
communication.
    Thank you very much, Mr. Chairman.
    Mr. Clay. Thank you, Ms. Norton.
    Having no other questions, that will conclude this hearing. 
The hearing is adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2947.077

[GRAPHIC] [TIFF OMITTED] T2947.078

[GRAPHIC] [TIFF OMITTED] T2947.079

[GRAPHIC] [TIFF OMITTED] T2947.080

[GRAPHIC] [TIFF OMITTED] T2947.081

[GRAPHIC] [TIFF OMITTED] T2947.082

[GRAPHIC] [TIFF OMITTED] T2947.083

[GRAPHIC] [TIFF OMITTED] T2947.084

[GRAPHIC] [TIFF OMITTED] T2947.085

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
